   Pension Benefit Guaranty Corporation
          Office of Inspector General
                    Audit Report




Audit of the Pension Benefit Guaranty Corporation’s
  Fiscal Year 2008 and 2007 Financial Statements




               Independent Auditor’s Report




          Pension Benefit Guaranty Corporation’s
      Fiscal Year 2008 and 2007 Financial Statements




                 November 13, 2008
                                              AUD-2009-1 / FA-08-49-1
              Audit of the Pension Benefit Guaranty Corporation’s
               Fiscal Year 2008 and 2007 Financial Statements

                       Audit Report 2009-1 / FA-0049-1




                                    Contents


Section I:      Independent Auditor’s Report

Section II:     Pension Benefit Guaranty Corporation’s
                Fiscal Year 2008 and 2007 Financial Statements

Section III:    Agency Comments




                                Abbreviations

C&A             Certification and Accreditation
FIPS PUB        Federal Information Processing Standards Publication
FMFIA           Federal Managers’ Financial Integrity Act of 1982
FY              Fiscal Year
IT              Information Technology
NIST SP         National Institute of Standards and Technology Special Publication
OIG             Office of Inspector General
OMB             Office of Management and Budget
PBGC            Pension Benefit Guaranty Corporation
Audit of the Pension Benefit Guaranty Corporation’s
 Fiscal Year 2008 and 2007 Financial Statements

         Audit Report 2009-1 / FA-0049-1




                    Section I

       Independent Auditor’s Report
a1
                                      Independent Auditor’s Report


To the Inspector General of the
Pension Benefit Guaranty Corporation
Washington, DC


In our audits of the Single-Employer and Multiemployer Program Funds administered by the
Pension Benefit Guaranty Corporation (PBGC) for fiscal years 2008 and 2007, we found:

•     the financial statements are presented fairly, in all material respects, in conformity with
      accounting principles generally accepted in the United States of America;

•     although internal controls could be improved, PBGC had effective internal control over
      financial reporting (including safeguarding assets) and compliance with laws and regulations
      as of September 30, 2008; and

•     no reportable noncompliance in fiscal year 2008 with laws and regulations we tested.

The following sections discuss in more detail (1) these conclusions, (2) our conclusions on other
accompanying information, (3) our audit objectives, scope, and methodology, and (4) agency
comments and our evaluation.

                                    Opinion on Financial Statements

The financial statements, including the accompanying notes, present fairly, in all material
respects, in conformity with accounting principles generally accepted in the United States of
America, the financial position of the Single-Employer and Multiemployer Program Funds
administered by PBGC as of September 30, 2008 and 2007, and the results of their operations
and cash flows for the fiscal years then ended.

By law, PBGC’s Single-Employer and Multiemployer Program Funds must be self-sustaining.
As of September 30, 2008, PBGC reported in its financial statements net deficit positions
(liabilities in excess of assets) in the Single-Employer and Multiemployer Program Funds of
$10,678 million and $473 million, respectively. As discussed in Note 8 to the financial
statements, loss exposure for the Single-Employer and Multiemployer Programs that are
reasonably possible as a result of unfunded vested benefits are estimated to be $46,732 million
and $30 million, respectively. Management based the Single-Employer Program estimate on data
for fiscal years ending in calendar 2007 that was obtained from filings and submissions to the

11710 Beltsville Drive, Suite 300
Calverton, Maryland 20705-3106



                                                                                   h
tel: 301-931-2050
fax: 301-931-1710                                       1
www.cliftoncpa.com                     Offices in 17 states and Washington, DC
government and from corporate annual reports. Subsequent adjustment for economic conditions
through September 30, 2008 has not been made and as a result the exposure to loss for the
Single-Employer Program as of September 30, 2008 could be substantially different. In addition,
PBGC’s net deficit and long-term viability could be further impacted by losses from plans
classified as reasonably possible (or from other plans not yet identified as potential losses) as a
result of deteriorating economic conditions, the insolvency of a large plan sponsor or other
factors. PBGC has been able to meet their short-term benefit obligations. However, as discussed
in Note 1 to the financial statements, management believes that neither program at present has
the resources to fully satisfy PBGC’s long-term obligations to plan participants.

                                  Opinion on Internal Control

Management’s assertion that PBGC maintained, in all material respects, effective internal control
over financial reporting (including safeguarding assets) and compliance with laws and
regulations as of September 30, 2008 is fairly stated, in all material respects, based on criteria
contained in 31 U.S.C. 3512 (c), (d), the Federal Managers’ Financial Integrity Act of 1982
(FMFIA).

However, we identified certain deficiencies in internal control over financial reporting (including
safeguarding assets) and compliance with laws and regulations and its operation that we consider
to be significant deficiencies which adversely affect PBGC’s ability to meet the internal control
objectives listed in the objectives, scope, and methodology section of this report, or meet Office
of Management and Budget (OMB) criteria for reporting matters under FMFIA.

A control deficiency exists when the design or operation of a control does not allow management
or employees, in the normal course of performing their assigned functions, to prevent or detect
misstatements on a timely basis. A significant deficiency is a control deficiency, or combination
of control deficiencies, that adversely affects the entity's ability to initiate, authorize, record,
process, or report financial data reliably in accordance with generally accepted accounting
principles such that there is more than a remote likelihood that a misstatement of the entity’s
financial statements that is more than inconsequential will not be prevented or detected by the
entity’s internal control. Significant deficiencies we noted are as follows:

1. Entity-wide Security Program Planning and Management
2. Access Controls
3. Integrated Financial Management Systems

A material weakness is a significant deficiency, or combination of significant deficiencies, that
results in more than a remote likelihood that a material misstatement of the financial statements
will not be prevented or detected by the entity’s internal control. We believe that none of the
significant deficiencies described in this report are material weaknesses.

                             ********************************




                                                 2
SIGNIFICANT DEFICIENCIES

PBGC relies extensively on information technology (IT) systems to accomplish its mission and
in the preparation of its financial statements. Internal controls over these operations are essential
to ensure the confidentiality, integrity, and availability of critical data while reducing the risk of
errors, fraud, and other illegal acts.

Our review of IT controls covered general and selected application controls. General controls
are the structure, policies, and procedures that apply to an entity’s overall computer systems.
They include entity-wide security management, access controls, system software controls,
application software development and change controls, segregation of duties and service
continuity controls. Application controls involve input, processing, and output controls related
to specific IT applications.

Our review also included the integration of financial management systems to ensure effective
and efficient interrelationships. These interrelationships include common data elements,
common transaction processing, consistent internal controls, and transaction entry.

In fiscal year (FY) 2008, PBGC embarked on a concerted entity-wide security management
program to correct systemic security control weaknesses at the root cause level. However, these
efforts have not been completed and additional time will be needed to adequately implement the
audit recommendations noted in the FY 2007 report. PBGC has initiated the reorganization and
improvement of its security planning and management through the design and initial
implementation of an entity-wide security management program. Our current year audit work
found deficiencies in the areas of security management, including policy administration and the
certification and accreditation of major applications and general support systems. An effective
entity-wide security management program demonstrates the ability to implement enhancements
to an organization’s control environment on all new and existing systems and platforms in use.
The process for effective entity-wide security management and access controls will require time
to mature, but the framework that PBGC has developed should significantly improve its security
posture, if properly implemented and monitored.

Based on our findings we are reporting as significant deficiencies for FY 2008, (1) entity-wide
security program planning and management, (2) access controls and (3) integrated financial
management systems. The designation of access controls as a significant deficiency is based on
the aggregation of control weaknesses, showing a systemic problem. Our detailed findings and
recommendations have been provided to management in a separate limited disclosure report
dated November 12, 2008.         A summary of the significant deficiencies and related
recommendations follows.

1. Entity-wide Security Program Planning and Management

   An entity-wide security management program should be in place to establish a framework
   and continuing cycle of activity to manage security risk, develop security policies, assign
   responsibilities, and monitor the adequacy of computer security related controls. It should
   also represent the foundation for an entity’s security control structure and reflect senior



                                                  3
management’s commitment to addressing security risks. OMB Circular No. A-130,
Appendix III, Security of Federal Automated Information Resources, requires agencies to
implement and maintain a program to assure that adequate security is provided for all agency
information collected, processed, transmitted, stored, or disseminated in general support
systems and major applications.

During FY 2008, PBGC made significant progress in strengthening the design and
implementation of their entity-wide security management program. This program was
designed to address previously identified security weaknesses at the root cause level.
Management corrected four prior year’s internal control weaknesses. First, they completed
categorizing their general support systems and major applications in accordance with Federal
Standards; second, PBGC identified and documented 65 common security controls; third,
they completed a process to conduct certification and accreditation (C&A) procedures; and
fourth, they completed security awareness training for employees and contractors.

PBGC made progress on other internal control weaknesses. PBGC has identified and
documented 65 common security controls organized into the 17 security control families
noted in the National Institute of Standards and Technology (NIST) Special Publication (SP)
800-53, Recommended Security Controls for Federal Information Systems. However, PBGC
needs to fully implement and confirm the adequacy of design and operating effectiveness of
the 65 common controls for all 17 families. PBGC completed the development and
implementation of a formal C&A process, using it to complete a review of 13 major
applications and general support systems. However, although PBGC conducted a quality
control review of the C&A packages, the review did not identify issues with quality,
accuracy, and consistency. Lastly, PBGC developed a role-based training program.
However, this effort is still in process.

Despite progress in these areas, continued improvements are needed to resolve the control
deficiencies. These deficiencies prevent PBGC from implementing effective security
controls to protect its information from unauthorized access, modification, and disclosure.

Without a fully implemented security management program, there is increased risk that
security controls are inadequate; responsibilities are unclear, misunderstood, and improperly
implemented; and controls are inconsistently applied. Such conditions may lead to
insufficient protection of sensitive or critical resources and disproportionately high
expenditures for controls over low-risk resources.

Recommendation:

PBGC management should continue developing and implementing its security program
management that will enable the completion of an effective entity-wide security management
program.




                                           4
2. Access Controls

   Access controls should be in place to consistently limit, detect, or monitor access to computer
   programs, data, equipment, and facilities thereby protecting against unauthorized
   modification, disclosure, loss, or impairment. Such controls include both logical and
   physical security controls to ensure that federal employees and contractors will be given only
   the privileges necessary to perform business functions, i.e., access privileges. Federal
   Information Processing Standards Publication (FIPS PUB) 200, Minimum Security
   Requirements for Federal Information and Information Systems, specifies minimum access
   controls for federal systems. FIPS PUB 200 requires PBGC’s information system owners to
   limit information system access to authorized users.

   PBGC is in the process of implementing a program to address access control weaknesses at
   the root cause level. PBGC has acknowledged that this approach will require additional time
   to fully address access control weaknesses. The former approach of addressing specific
   access control findings did not adequately correct and/or mitigate known control weaknesses.
   PBGC implemented intensive manual controls in order to compensate for the access control
   deficiencies. Additionally, management stated that they are evaluating new technology to
   help enhance their access controls. We continue to find deficiencies in system configurations
   and user account management across many of PBGC’s systems. Until PBGC consistently
   implements all key elements of its information security program, PBGC will not have
   sufficient assurance that financial information and financial assets are adequately
   safeguarded from inadvertent or deliberate misuse, fraudulent use, improper disclosure, or
   destruction.

   Recommendation:

   PBGC management and information system owners should continue to mitigate the systemic
   issues related to access control by strengthening system configurations and user account
   management for all of PBGC’s information systems.

3. Integrated Financial Management Systems

   As reported in prior year audits, the risk of inaccurate, inconsistent, and redundant data is
   increased because PBGC lacks a single integrated financial management system. The current
   system cannot be readily accessed and used by financial and program managers without
   extensive manipulation, excessive manual processing, and inefficient balancing of reports to
   reconcile disbursements, collections, and general ledger data.

   OMB Circular A-127, Financial Management System, requires that federal financial
   management systems be designed to provide for effective and efficient interrelationships
   between software, hardware, personnel, procedures, controls, and data contained within the
   systems.

   In the short term, PBGC’s ability to accurately and efficiently record, accumulate and
   summarize information required for internal and external financial reporting may be



                                               5
    impacted. For this reason, this issue is a significant deficiency for FY 2008.

    Recommendation:

    PBGC management should continue their efforts to integrate PBGC’s financial management
    systems in accordance with OMB Circular A-127.

                            Compliance with Laws and Regulations

Our tests of PBGC’s compliance with selected provisions of laws and regulations for fiscal year
2008 disclosed no instances of noncompliance that would be reportable under U.S. generally
accepted government auditing standards or OMB audit guidance. However, the objective of our
audit was not to provide an opinion on overall compliance with laws and regulations.
Accordingly, we do not express such an opinion.

This conclusion is intended solely for the information and use of PBGC’s Office of Inspector
General, Board of Directors, management of PBGC, Government Accountability Office, Office
of Management and Budget, the United States Congress, and the President and is not intended to
be and should not be used by anyone other than these specified parties.

                              Objectives, Scope, and Methodology

PBGC’s management is responsible for (1) preparing the financial statements in conformity with
accounting principles generally accepted in the United States of America; (2) establishing,
maintaining, and assessing internal control to provide reasonable assurance that the broad control
objectives of FMFIA are met; and (3) complying with applicable laws and regulations.

We are responsible for obtaining reasonable assurance about whether (1) the financial statements
are presented fairly, in all material respects, in conformity with accounting principles generally
accepted in the United States of America; and (2) management maintained effective internal
control as of September 30, 2008 based on management’s assertion included in the
accompanying Annual Management Report and on the criteria contained in FMFIA, the
objectives of which are the following:

•   Financial reporting: Transactions are properly recorded, processed, and summarized to
    permit the preparation of financial statements in conformity with accounting principles
    generally accepted in the United States of America, and assets are safeguarded against loss
    from unauthorized acquisition, use, or disposition.
•   Compliance with applicable laws and regulations: Transactions are executed in accordance
    with laws and regulations that could have a direct and material effect on the financial
    statements and any other laws, regulations, and governmentwide policies identified by OMB
    audit guidance.

We are also responsible for testing compliance with selected provisions of laws and regulations
that have a direct and material effect on the financial statements and laws for which OMB audit




                                                 6
guidance requires testing and performing limited procedures with respect to certain other
information appearing in the accompanying Annual Management Report.

In order to fulfill these responsibilities, we (1) examined, on a test basis, evidence supporting the
amounts and disclosures in the financial statements; (2) assessed the accounting principles used
and significant estimates made by management; (3) evaluated the overall presentation of the
financial statements; (4) obtained an understanding of the entity and its operations, including its
internal control related to financial reporting (including safeguarding assets) and compliance
with laws and regulations; (5) tested relevant internal control over financial reporting (including
safeguarding assets) and compliance, and evaluated the design and operating effectiveness of
internal control for the fiscal year ended September 30, 2008; (6) considered the design of the
process for evaluating and reporting on internal control and financial management systems under
FMFIA; and (7) tested compliance for fiscal year 2008 with selected provisions of laws and
regulations that have a direct and material effect on the financial statements.

We did not evaluate all internal controls relevant to operating objectives as broadly defined by
FMFIA, such as those controls relevant to preparing statistical reports and ensuring efficient
operations. We limited our internal control testing to controls over financial reporting and
compliance. Because of inherent limitations in internal control, misstatements due to error or
fraud, losses, or noncompliance may nevertheless occur and not be detected. We also caution
that projecting our evaluation to future periods is subject to the risk that controls may become
inadequate because of changes in conditions, or that the degree of compliance with controls may
deteriorate.

We did not test compliance with all laws and regulations applicable to PBGC. We limited our
tests of compliance to selected provisions of laws and regulations that have a direct and material
effect on the financial statements and to those required by OMB audit guidance that we deemed
applicable to the financial statements for the fiscal year ended September 30, 2008. We caution
that noncompliance may occur and not be detected by these tests and that such testing may not
be sufficient for other purposes.

We performed our work in accordance with U.S. generally accepted government auditing
standards and OMB audit guidance.

                            Agency Comments and Our Evaluation

In commenting on the draft of this report (see Section III of this report), PBGC’s management
concurred with the facts and conclusions in our report. We did not perform audit procedures on
PBGC’s written response to the significant deficiencies and, accordingly, we express no opinion
on it.




Calverton, Maryland
November 12, 2008



                                                 7
  Audit of the Pension Benefit Guaranty Corporation’s
   Fiscal Year 2008 and 2007 Financial Statements

           Audit Report 2009-1 / FA-0049-1




                     Section II

    Pension Benefit Guaranty Corporation’s
Fiscal Year 2008 and 2007 Financial Statements
                             PENSION BENEFIT GUARANTY CORPORATION
                              STATEMENTS OF FINANCIAL CONDITION


                                                                  Single-Em ployer         Multiem ployer          Mem orandum
                                                                      Program                Program                  Total

                                                                 Sept 30,      Sept 30,   Sept 30, Sept 30,       Sept 30,   Sept 30,
(Dollars in millions)                                               2008          2007       2008     2007           2008       2007

ASSETS

Cash and cash equivalents                                       $ 1,906        $ 2,201    $     20    $      7    $ 1,926    $ 2,208
Securities lending collateral (Note 3)                               3,772       5,045           0           0      3,772      5,045
Investm ents, at m arket (Note 3):
     Fixed m aturity securities                                   34,075        36,450        1,298       1,189    35,373     37,639
     Equity securities                                            13,044        17,386           0           0     13,044     17,386
     Real estate and real estate investm ent trusts                     3            3           0           0          3          3
     Other                                                             23           37           0           0        23          37
     Total investm ents                                           47,145        53,876        1,298       1,189    48,443     55,065



Receivables, net:
     Sponsors of term inated plans                                      19          68           0           0         19         68
     Prem ium s (Note 10)                                             185          151           2           1        187        152
     Sale of securities                                              1,357         937           0           0      1,357        937
     Derivative contracts (Note 4)                                   6,831       4,634           0           0      6,831      4,634
     Investm ent incom e                                              398          286           7           0       405         286
     Other                                                              3            2           0           0          3          2
     Total receivables                                               8,793       6,078           9           1      8,802      6,079


Capitalized assets, net                                                32           41           0           0        32          41


Total assets                                                     $61,648       $67,241    $1,327      $1,197      $62,975    $68,438

The accom panying notes are an integral part of these financial statem ents.




                                                                 1
                             PENSION BENEFIT GUARANTY CORPORATION
                              STATEMENTS OF FINANCIAL CONDITION


                                                                    Single-Em ployer           Multiem ployer         Mem orandum
                                                                        Program                  Program                 Total

                                                                 Sept 30,       Sept 30,   Sept 30, Sept 30,        Sept 30,     Sept 30,
(Dollars in Millions)                                               2008           2007       2008     2007            2008         2007


LIABILITIES


Present value of future benefits, net (Note 5):
     Trusteed plans                                             $ 56,570       $ 65,096    $       1    $       2   $ 56,571    $ 65,098
     Plans pending term ination and trusteeship                        216         298             0            0       216         298
     Settlem ents and judgm ents                                        56          55             0            0        56          55
     Claim s for probable term inations                              3,154        3,786            0            0     3,154        3,786
     Total present value of future benefits, net                    59,996      69,235             1            2    59,997      69,237



Present value of nonrecoverable future
     financial assistance (Note 6)                                                             1,768        2,124     1,768        2,124
Payable upon return of securities loaned                             3,772        5,045            0            0     3,772        5,045
Unearned prem ium s                                                    331         302            31          26        362         328
Due for purchases of securities                                      1,847         814             0            0     1,847         814
Derivative contracts (Note 4)                                        6,217        4,845            0            0     6,217        4,845
Accounts payable and accrued expenses (Note 7)                         163         111             0            0       163         111
Total liabilities                                                   72,326      80,352         1,800        2,152    74,126      82,504

Net position                                                     (10,678)       (13,111)        (473)       (955)    (11,151)    (14,066)

Total liabilities and net position                              $ 61,648       $ 67,241    $1,327       $1,197      $ 62,975    $ 68,438

The accom panying notes are an integral part of these financial statem ents.




                                                                2
                                   PENSION BENEFIT GUARANTY CORPORATION
                            STATEMENTS OF OPERATIONS AND CHANGES IN NET POSITION
                                                              Single-Em ployer                    Multiem ployer                      Mem orandum
                                                                 Program                            Program                              Total

                                                           For the Years Ended                  For the Years Ended                For the Years Ended
                                                             Septem ber 30,                       Septem ber 30,                     Septem ber 30,
(Dollars in Millions)                                       2008                    2007         2008                 2007          2008                   2007
UNDERW RITING

Incom e:
    Prem ium (Note 10)                              $      1,402           $      1,476     $     90         $         81     $     1,492       $        1,557
    Other                                                     23                     55            0                     0            23                    55
    Total                                                  1,425                  1,531           90                   81           1,515                1,612
Expenses:
    Adm inistrative                                          350                    328            0                     0           350                   328
    Other                                                     67                    114             1                    1            68                   115
    Total                                                    417                    442             1                    1           418                   443
Other underwriting activity:
    Losses (credits) from com pleted and
     probable term inations (Note 11)                       (826)                   399            0                     0          (826)                  399
    Losses (credits) from financial
     assistance (Note 6)                                                                        (271)                 319           (271)                  319
    Actuarial adjustm ents (credits) (Note 5)               (649)                  (114)           (1)                   0          (650)                 (114)
    Total                                                 (1,475)                   285         (272)                 319          (1,747)                 604
Underwriting gain (loss)                                   2,483                    804          361                  (239)        2,844                   565


FINANCIAL:
Investm ent incom e (Note 12):
    Fixed                                                    577                  1,730          121                   23            698                 1,753
    Equity                                                (4,788)                 2,988            0                     0        (4,788)                2,988
    Other                                                     47                     19            0                     0            47                    19
    Total                                                 (4,164)                 4,737          121                   23         (4,043)                4,760
Expenses:
    Investm ent                                               50                     50            0                     0            50                    50
    Actuarial charges (credits) (Note 5):
     Due to passage of tim e                               3,400                  3,269            0                     0         3,400                 3,269
     Due to change in interest rates                      (7,564)                 (2,809)          0                     0        (7,564)                (2,809)
    Total                                                  (4,114)                  510            0                     0         (4,114)                 510
Financial incom e (loss)                                     (50)                 4,227          121                   23              71                4,250
Net incom e (loss)                                         2,433                  5,031          482                  (216)         2,915                4,815


Net position, beginning of year                           (13,111)               (18,142)       (955)                 (739)       (14,066)           (18,881)
Net position, end of period                         $    (10,678)          $     (13,111)   $   (473)        $        (955)   $   (11,151)      $    (14,066)


The accom panying notes are an integral part of these financial statem ents.




                                                                                      3
PENSION BENEFIT GUARANTY CORPORATION
STATEMENTS OF CASH FLOWS
                                                                   Single-Employer              Multiemployer          Memorandum
                                                                        Program                    Program                  Total
                                                                  For the Years Ended        For the Years Ended     For the Years Ended
 (Dollars in millions)                                               September 30,               September 30,           September 30,
____________________________________________________           ______2008 ____2007          ____2008 ____2007       ____2008 ____2007
OPERATING ACTIVITIES:

  Premium receipts                                             $        1,336 $ 1,598       $    93     $    81    $ 1,429 $ 1,679
  Interest and dividends received                                       2,325   1,714             47          7       2,372    1,721
  Cash received from plans upon trusteeship                               155     165              0          0         155      165
  Receipts from sponsors/non-sponsors                                     137     345              0          0         137      345
  Receipts from the missing participant program                             7       3              0          0           7        3
  Other receipts                                                             1      3              0          0           1        3
  Benefit payments – trusteed plans                                    (4,247) (4,170)             0          0      (4,247) (4,170)
  Financial assistance payments                                                                 (85)        (71)        (85)     (71)
  Settlements and judgments                                                (1)        (2)          0          0          (1)      (2)
  Payments for administrative and other expenses                         (372)     (377)           0          0        (372)   (377)
  Accrued interest paid on securities purchased                          (702)     (306)        (32)          0        (734)   (306)
Net cash provided (used) by operating activities (Note 14)             (1,361)   (1,027)         23          17      (1,338) (1,010)

INVESTING ACTIVITIES:

  Proceeds from sales of investments                                216,225 123,680           3,270       1,978     219,495 125,658
  Payments for purchases of investments                            (215,159) (122,451)       (3,280)     (1,993)   (218,439) (124,444)
  Net change in investment of securities lending collateral          (1,274)   (1,446)            0           0      (1,274)   (1,446)
  Net change in securities lending payable                            1,274     1,446             0           0       1,274     1,446
Net cash provided (used) by investing activities                      1,066     1,229           (10)        (15)      1,056     1,214

Net increase (decrease) in cash and cash equivalents                    (295)    202            13           2        (282)    204
Cash and cash equivalents, beginning of year                           2,201   1,999             7           5       2,208   2,004
Cash and cash equivalents, end of year                         $       1,906 $ 2,201        $   20      $    7     $ 1,926 $ 2,208


The accompanying notes are an integral part of these financial statements




                                                                   4
NOTES TO FINANCIAL STATEMENTS

SEPTEMBER 30, 2008 AND 2007

Note 1 – Organization and Purpose
        The Pension Benefit Guaranty Corporation (PBGC or the Corporation) is a federal
corporation created by Title IV of the Employee Retirement Income Security Act of 1974 (ERISA)
and is subject to the provisions of the Government Corporation Control Act. Its activities are
defined in ERISA as amended by the Multiemployer Pension Plan Amendments Act of 1980, the
Single-Employer Pension Plan Amendments Act of 1986, the Pension Protection Act of 1987, the
Retirement Protection Act of 1994, the Consolidated Appropriations Act, 2001, the Deficit Reduction
Act of 2005, and the Pension Protection Act of 2006. The Corporation insures the pension benefits,
within statutory limits, of participants in covered single-employer and multiemployer defined benefit
pension plans.
        ERISA requires that PBGC programs be self-financing. ERISA provides that the U.S.
Government is not liable for any obligation or liability incurred by PBGC.
        For financial statement purposes, PBGC divides its business activity into two broad areas –
“Underwriting Activity” and “Financial Activity” – covering both single-employer and multiemployer
program segments. PBGC’s Underwriting Activity provides financial guaranty insurance in return for
insurance premiums (whether actually paid or not). Actual and expected probable losses that result
from the termination of underfunded pension plans are included in this category, as are actuarial
adjustments based on changes in actuarial assumptions, such as mortality. Financial Activity consists
of the performance of PBGC’s assets and liabilities. PBGC’s assets consist of premiums collected
from defined benefit plan sponsors, assets from distress or involuntarily terminated plans that PBGC
has insured, and recoveries from the former sponsors of those terminated plans. PBGC’s future
benefit liabilities consist of those future benefits, under statutory limits, that PBGC has assumed
following distress or involuntary terminations. Gains and losses on PBGC’s investments and changes
in the value of PBGC’s future benefit liabilities (e.g., actuarial charges such as changes in interest rates
and passage of time) are included in this area.
        As of September 30, 2008, the single-employer and multiemployer programs reported deficits
of $10.7 billion and $473 million, respectively. The single-employer program had assets of over
$61.6 billion offset by total liabilities of $72.3 billion, which include a total present value of future
benefits (PVFB) of approximately $60.0 billion. As of September 30, 2008, the multiemployer
program had assets over $1.3 billion offset by approximately $1.8 billion in present value of
nonrecoverable future financial assistance.
        Notwithstanding these deficits, the Corporation has sufficient liquidity to meet its obligations
                                                5
for a number of years; however, neither program at present has the resources to fully satisfy PBGC’s
long-term obligations to plan participants.


Single-Employer and Multiemployer Program Exposure
        PBGC’s best estimate of the total underfunding in plans sponsored by companies with credit
ratings below investment grade, and classified by PBGC as reasonably possible of termination as of
September 30, 2008, was $47 billion. The comparable estimates of reasonably possible exposure for
2007 and 2006 were $66 billion and $73 billion, respectively. These estimates are measured as of
December 31 of the previous year (see Note 8). For 2008, this exposure is concentrated in the
following sectors: manufacturing (primarily automobile/auto parts, and primary and fabricated
metals), transportation (primarily airlines), and wholesale and retail trade.
        PBGC estimates that, as of September 30, 2008, it is reasonably possible that multiemployer
plans may require future financial assistance in the amount of $30 million. As of September 30, 2007
and 2006, these exposures were estimated at $73 million and $83 million, respectively.
        There is significant volatility in plan underfunding and sponsor credit quality over time, which
makes long-term estimation of PBGC’s expected claims difficult. This volatility, and the
concentration of claims in a relatively small number of terminated plans, have characterized PBGC’s
experience to date and will likely continue. Among the factors that will influence PBGC’s claims
going forward are economic conditions affecting interest rates, financial markets, and the rate of
business failures.
        Total underfunding reported under Section 4010 of ERISA is the most current source of
individual plan underfunding information; it has accounted for over 75% of the estimates of total
underfunding reported in the recent past. Prior to PPA, section 4010 required that companies
annually provide PBGC with information on their underfunded plans if the firm’s aggregate
underfunding exceeds $50 million or there is an outstanding lien for missed contributions exceeding
$1 million or an outstanding funding waiver of more than $1 million. Due to the degradation in the
quality and reliability of the estimates resulting from the changes to section 4010 reporting
requirements including the regulation-driven changes in the Required Interest Rate as well as PPA
changes to who must file, PBGC no longer publishes estimates of total underfunding in the Annual
Management Report. However, the Corporation will continue to publish Table S-47, "Various
Estimates of Underfunding in PBGC-Insured Plans", in its Pension Insurance Data Book where the
limitations of the estimates can be fully and appropriately described.
        Under the single-employer program, PBGC is liable for the payment of guaranteed benefits
with respect only to underfunded terminated plans. An underfunded plan may terminate only if
PBGC or a bankruptcy court finds that one of the four conditions for a distress termination, as
                                                   6
defined in ERISA, is met or if PBGC involuntarily terminates a plan under one of five specified
statutory tests. The net liability assumed by PBGC is generally equal to the present value of the future
benefits payable by PBGC less amounts provided by the plan’s assets and amounts recoverable by
PBGC from the plan sponsor and members of the plan sponsor’s controlled group, as defined by
ERISA.
       Under the multiemployer program, if a plan becomes insolvent, it receives financial assistance
from PBGC to allow the plan to continue to pay participants their guaranteed benefits. PBGC
recognizes assistance as a loss to the extent that the plan is not expected to be able to repay these
amounts from future plan contributions, employer withdrawal liability or investment earnings.


Note 2 – Significant Accounting Policies
        Basis of Presentation: The accompanying financial statements have been prepared in
accordance with accounting principles generally accepted in the United States of America (GAAP).
The preparation of the financial statements in conformity with GAAP requires management to make
estimates and assumptions that affect the reported amounts of assets and liabilities and disclosure of
contingent assets and liabilities at the date of the financial statements and the reported amounts of
revenues and expenses during the reporting period. Estimates and assumptions may change over
time as new information is obtained or subsequent developments occur. Actual results could differ
from those estimates.


        Valuation Method: A primary objective of PBGC’s financial statements is to provide
information that is useful in assessing PBGC’s present and future ability to ensure that its plan
beneficiaries receive benefits when due. Accordingly, PBGC values its financial assets at estimated
fair value, consistent with the standards for pension plans contained in Statement of Financial
Accounting Standards (FAS) No. 35 (“Accounting and Reporting by Defined Benefit Pension Plans”).
PBGC values its liabilities for the present value of future benefits and present value of nonrecoverable
future financial assistance using assumptions derived from annuity prices from insurance companies,
as described in the Statement of Actuarial Opinion. As described in Paragraph 21 of FAS No. 35, the
assumptions are “those assumptions that are inherent in the estimated cost at the (valuation) date to
obtain a contract with an insurance company to provide participants with their accumulated plan
benefits.” Also, in accordance with Paragraph 21 of FAS No. 35, PBGC selects assumptions for
expected retirement ages and the cost of administrative expenses in accordance with its best estimate
of anticipated experience.
        In September 2006, the FASB issued SFAS No. 157, Fair Value Measurements. SFAS No.
157 defines fair value, establishes a framework for measuring fair value in GAAP, and expands
                                                  7
disclosures about fair value measurements. SFAS No. 157 applies to accounting pronouncements
that require or permit fair value measurements. Prior to SFAS No. 157, there were different
definitions of fair value with limited guidance for applying those definitions in GAAP; additionally,
the issuance for applying fair value was dispersed among many accounting pronouncements that
require fair value measurement. SFAS No. 157 is effective for accounting periods beginning after
November 15, 2007, which will be PBGC’s FY 2009 financial statements. PBGC is currently
evaluating the impact that the adoption of SFAS No. 157 will have on the financial statements.


        Revolving and Trust Funds: PBGC accounts for its single-employer and multiemployer
programs’ revolving and trust funds on an accrual basis. Each fund is charged its portion of the
benefits paid each year. PBGC presents totals that include both the revolving and trust funds for
presentation purposes in the financial statements; however, the single-employer and multiemployer
programs are separate programs by law and, therefore, PBGC also reports them separately.
        ERISA provides for the establishment of the revolving fund where premiums are collected
and held. The assets in the revolving fund are used to cover deficits incurred by plans trusteed and to
provide funds for financial assistance. The Pension Protection Act of 1987 created a single-employer
revolving (7th) fund that is credited with all premiums in excess of $8.50 per participant, including all
penalties and interest charged on these amounts, and its share of earnings from investments. This
fund may not be used to pay PBGC’s administrative costs or the benefits of any plan terminated prior
to October 1, 1988, unless no other amounts are available.
        The trust funds include assets (e.g., pension plan investments) PBGC assumes (or expects to
assume) once a terminated plan has been trusteed, and related investment income. These assets
generally are held by custodian banks. The trust funds support the operational functions of PBGC.
        The trust funds reflect accounting activity associated with: (1) trusteed plans – plans for which
PBGC has legal responsibility – the assets and liabilities are reflected separately on PBGC’s
Statements of Financial Condition, the income and expenses are included in the Statements of
Operations and Changes in Net Position and the cash flows from these plans are included in the
Statements of Cash Flows, and (2) plans pending termination and trusteeship – plans for which
PBGC has begun the process for termination and trusteeship by fiscal year-end – the assets and
liabilities for these plans are reported as a net amount on the liability side of the Statements of
Financial Condition under “Present value of future benefits, net.” For these plans, the income and
expenses are included in the Statements of Operations and Changes in Net Position, but the cash
flows are not included in the Statements of Cash Flows, and (3) probable terminations – plans that
PBGC determines are likely to terminate and be trusteed by PBGC – the assets and liabilities for
these plans are reported as a net amount on the liability side of the Statements of Financial Condition
                                                   8
under “Present value of future benefits, net.” The accrued loss from these plans is included in the
Statements of Operations and Changes in Net Position as part of “Losses from completed and
probable terminations.” The cash flows from these plans are not included in the Statements of Cash
Flows. PBGC cannot exercise legal control over a plan’s assets until it becomes trustee.


        Allocation of Revolving and Trust Funds: PBGC allocates assets, liabilities, income and
expenses to each program’s revolving and trust funds to the extent that such amounts are not directly
attributable to a specific fund. Revolving fund investment income is allocated on the basis of each
program’s average cash and investments available during the year while the expenses are allocated on
the basis of each program’s present value of future benefits. Revolving fund assets and liabilities are
allocated according to the year-end balance of each program’s revolving funds. Plan assets acquired
by PBGC and commingled at PBGC’s custodian bank are credited directly to the appropriate fund
while the earnings and expenses on the commingled assets are allocated to each program’s trust funds
on the basis of each trust fund’s value, relative to the total value of the commingled fund.


        Cash and Cash Equivalents: Cash includes cash on hand and demand deposits. Cash
equivalents are securities with a maturity of one business day.


        Securities Lending Collateral: PBGC participates in a securities lending program
administered by its custodian bank. The custodian bank requires collateral that equals 102 percent to
105 percent of the securities lent. The collateral is held by the custodian bank. In addition to the
lending program managed by the custodian bank, some of PBGC’s investment managers are
authorized to invest in repurchase agreements (an agreement with a commitment by the seller to buy
a security back from the purchaser at a specified price at a designated future date), and reverse
repurchase agreements. The manager either receives cash as collateral or pays cash out to be used as
collateral. Any cash collateral received is invested by PBGC’s investment agent.


        Investment Valuation and Income: PBGC bases market values on the last sale of a listed
security, on the mean of the “bid-and-ask” for nonlisted securities or on a valuation model in the case
of fixed income securities that are not actively traded. These valuations are determined as of the end
of each fiscal year. Purchases and sales of securities are recorded on the trade date. In addition,
PBGC invests in and discloses its derivative investments in accordance with the guidance contained in
FAS No. 133 (“Accounting for Derivative Instruments and Hedging Activities”), as amended.
Investment income is accrued as earned. Dividend income is recorded on the ex-dividend date.
Realized gains and losses on sales of investments are calculated using first-in, first-out for the
                                                   9
revolving fund and average cost for the trust fund. PBGC marks the plan’s assets to market and any
increase or decrease in the market value of a plan’s assets occurring after the date on which the plan is
terminated must, by law, be credited to or suffered by PBGC.


        Sponsors of Terminated Plans, Receivables: The amounts due from sponsors of
terminated plans or members of their controlled group represent the settled, but uncollected, claims
for employer liability (underfunding as of date of plan termination) and for contributions due their
plan less an allowance for estimated uncollectible amounts. PBGC discounts any amounts expected
to be received beyond one year for time and risk factors. Some agreements between PBGC and plan
sponsors provide for contingent payments based on future profits of the sponsors. The Corporation
will report any such future amounts in the period they are realizable. Income and expenses related to
amounts due from sponsors are reported in the underwriting section of the Statements of Operations
and Changes in Net Position. Interest earned on settled claims for employer liability and due and
unpaid employer contributions (DUEC) is reported as “Income: Other.” The change in the
allowances for uncollectible employer liability and DUEC is reported as “Expenses: Other.”


        Premiums: Premiums receivable represent the estimated earned but unpaid portion of the
premiums for plans that have a plan year commencing before the end of PBGC’s fiscal year and past
due premiums deemed collectible, including penalties and interest. The liability for unearned
premiums represents an estimate of payments received during the fiscal year that cover the portion of
a plan’s year after PBGC’s fiscal year-end. Premium income represents actual and estimated revenue
generated from self-assessments from defined benefit pension plans as required by Title IV of ERISA
(see Note 10).


        Capitalized Assets: Capitalized assets include furniture and fixtures, electronic processing
equipment and internal-use software. This includes costs for internally developed software incurred
during the application development stage (system design including software configuration and
software interface, coding, testing including parallel processing phase). These costs are shown net of
accumulated depreciation and amortization.


        Present Value of Future Benefits (PVFB): The PVFB is the estimated liability for future
pension benefits that PBGC is or will be obligated to pay the participants of trusteed plans and the
net liability for plans pending termination and trusteeship. The PVFB liability (including trusteed
plans as well as plans pending termination and trusteeship) is stated as the actuarial present value of
estimated future benefits less the present value of estimated recoveries from sponsors and members
                                                  10
of their controlled group and the assets of plans pending termination and trusteeship as of the date of
the financial statements. PBGC also includes the estimated liabilities attributable to plans classified as
probable terminations as a separate line item in the PVFB (net of estimated recoveries and plan
assets). PBGC uses assumptions to adjust the value of those future payments to reflect the time value
of money (by discounting) and the probability of payment (by means of decrements, such as for death
or retirement). PBGC also includes anticipated expenses to settle the benefit obligation in the
determination of the PVFB. PBGC’s benefit payments to participants reduces the PVFB liability.
        The values of the PVFB are particularly sensitive to changes in underlying estimates and
assumptions. These estimates and assumptions could change and the impact of these changes may be
material to PBGC’s financial statements (see Note 5).
            (1) Trusteed Plans–represents the present value of future benefit payments less the
            present value of expected recoveries (for which a settlement agreement has not been
            reached with sponsors and members of their controlled group) for plans that have
            terminated and been trusteed by PBGC prior to fiscal year-end. Assets are shown
            separately from liabilities for trusteed plans.
            (2) Pending Termination and Trusteeship–represents the present value of future benefit
            payments less the plans’ net assets (at fair value) anticipated to be received and the present
            value of expected recoveries (for which a settlement agreement has not been reached with
            sponsors and members of their controlled group) for plans for which termination action
            has been initiated and/or completed prior to fiscal year-end. Unlike trusteed plans, the
            liability for plans pending termination and trusteeship is shown net of plan assets.
            (3) Settlements and Judgments–represents estimated liabilities related to settled litigation.
            (4) Net Claims for Probable Terminations–In accordance with Statement of Financial
            Accounting Standards No. 5 (Accounting for Contingencies) PBGC recognizes net claims
            for probable terminations which represent PBGC’s best estimate of the losses, net of plan
            assets and the present value of expected recoveries (from sponsors and members of their
            controlled group) for plans that are likely to terminate in the future. These estimated
            losses are based on conditions that existed as of PBGC’s fiscal year-end. Management
            believes it is likely that one or more events subsequent to PBGC’s fiscal year-end will
            occur, confirming the loss. Criteria used for classifying a specific plan as a probable
            termination include, but are not limited to, one or more of the following conditions: the
            plan sponsor is in liquidation or comparable state insolvency proceeding with no known
            solvent controlled group member; sponsor has filed or intends to file for distress plan
            termination and the criteria will likely be met; or PBGC is considering the plan for
            involuntary termination. In addition, management takes into account other economic
                                                   11
           events and factors in making judgments regarding the classification of a plan as a probable
           termination. These events and factors may include, but are not limited to: the plan
           sponsor is in bankruptcy or has indicated that a bankruptcy filing is imminent; the plan
           sponsor has stated that plan termination is likely; the plan sponsor has received a going
           concern opinion from its independent auditors; or the plan sponsor is in default under
           existing credit agreement(s).
           In addition, a reserve for small unidentified probable losses and incurred but not reported
           (IBNR) claims is recorded based on an actuarial loss development methodology
           (triangulation method) (see Note 5).
           (5) PBGC identifies certain plans as high risk if the plan sponsor is in Chapter 11
           proceedings or the sponsor’s senior unsecured debt is rated CCC+/Caa1 or lower by S&P
           or Moody’s respectively. PBGC specifically reviews each plan identified as high risk and
           classifies those plans as probable if, based on available evidence, PBGC concludes that
           plan termination is likely (based on criteria described in (4) above). Otherwise, high risk
           plans are classified as reasonably possible.
           (6) In accordance with Statement of Financial Accounting Standards No. 5 (Accounting
           for Contingencies), PBGC’s exposure to losses from plans of companies that are classified
           as reasonably possible is disclosed in the footnotes. In order for a plan sponsor to be
           specifically classified as reasonably possible, it must first have $5 million or more of
           underfunding, as well as meet additional criteria. Criteria used for classifying a company
           as reasonably possible include, but are not limited to, one or more of the following
           conditions: the plan sponsor is in Chapter 11 reorganization; funding waiver pending or
           outstanding with the Internal Revenue Service (IRS); sponsor missed minimum funding
           contribution; sponsor’s bond rating is below-investment-grade for Standard & Poor’s
           (BB+) or Moody’s (Ba1); sponsor has no bond rating but unsecured debt is below
           investment grade; or sponsor has no bond rating but the ratio of long-term debt plus
           unfunded benefit liability to market value of shares is 1.5 or greater (see Note 8).


        Present Value of Nonrecoverable Future Financial Assistance: In accordance with Title
IV of ERISA, PBGC provides financial assistance to multiemployer plans, in the form of loans, to
enable the plans to pay guaranteed benefits to participants and reasonable administrative expenses.
These loans, issued in exchange for interest-bearing promissory notes, constitute an obligation of each
plan.
        The present value of nonrecoverable future financial assistance represents the estimated
nonrecoverable payments to be provided by PBGC in the future to multiemployer plans that will not
                                                  12
be able to meet their benefit obligations. The present value of nonrecoverable future financial
assistance is based on the difference between the present value of future guaranteed benefits and
expenses and the market value of plan assets, including the present value of future amounts expected
to be paid by employers, for those plans that are expected to require future assistance. The amount
reflects the rates at which, in the opinion of management, these liabilities (net of expenses) could be
settled in the market for single-premium nonparticipating group annuities issued by private insurers
(see Note 6).
        A liability for a particular plan is included in the “Present Value of Nonrecoverable Future
Financial Assistance” when it is determined that the plan is currently, or will likely become in the
future, insolvent and will require assistance to pay the participants their guaranteed benefit.
Determining insolvency requires considering several complex factors, such as an estimate of future
cash flows, future mortality rates, and age of participants not in pay status.
        Each year, PBGC analyzes insured multiemployer plans to identify those plans that are at risk
of becoming claims on the insurance program. Regulatory filings with PBGC and the other ERISA
agencies are important to this analysis and determination of risk. For example, a multiemployer plan
that no longer has contributing employers files a notice of termination with PBGC. In general, if a
terminated plan’s assets are less than the present value of its liabilities, PBGC considers the plan a
probable risk of requiring financial assistance in the future.
        PBGC also analyzes ongoing multiemployer plans (i.e., plans that continue to have employers
making regular contributions for covered work) to determine whether any such plans may be
probable or possible claims on the insurance program. In conducting this analysis each year, PBGC
examines plans that are chronically underfunded, have poor cash flow trends, a falling contribution
base, and plans that may lack a sufficient asset cushion to weather temporarily income losses. A
combination of these factors, or any one factor that is of sufficient concern, leads to a more detailed
analysis of the plan’s funding and the likelihood that the contributing employers will be able to
maintain the plan.


        Other Expenses: These expenses represent an estimate of the net amount of receivables
deemed to be uncollectible during the period (e.g., reserve for disputed or doubtful termination
premiums, write-off of unpaid premiums from recent large plan terminations). The estimate is based
on the most recent status of the debtor (e.g., sponsor), the age of the receivables and other factors
that indicate the element of uncollectibility in the receivables outstanding.


        Losses from Completed and Probable Terminations: Amounts reported as losses from
completed and probable terminations represent the difference as of the actual or expected date of
                                                   13
plan termination (DOPT) between the present value of future benefits (including amounts owed
under Section 4022(c) of ERISA) assumed, or expected to be assumed, by PBGC, less related plan
assets and the present value of expected recoveries from sponsors and members of their controlled
group (see Note 11). When a plan terminates, the previously recorded probable net claim is reversed
and newly estimated DOPT plan assets, recoveries and PVFB are netted and reported on the line
PVFB - Plans pending termination and trusteeship (this value is usually different than the amount
previously reported), with any change in the estimate being recorded in the Statements of Operations
and Changes in Net Position. In addition, the plan’s net income from date of plan termination to the
beginning of PBGC’s fiscal year is included as a component of losses from completed and probable
terminations for plans with termination dates prior to the year in which they were added to PBGC’s
inventory of terminated plans.


        Actuarial Adjustments and Charges (Credits): PBGC classifies actuarial adjustments
related to changes in method and the effect of experience as underwriting activity; actuarial
adjustments are the result of the movement of plans from one valuation methodology to another, e.g.,
nonseriatim (calculating the liability for the group) to seriatim (calculating separate liability for each
person), and of new data (e.g., deaths, revised participant data). Actuarial charges (credits) related to
changes in interest rates and passage of time is classified as financial activity. These adjustments and
charges (credits) represent the change in the PVFB that results from applying actuarial assumptions in
the calculation of future benefit liabilities (see Note 5).


        Depreciation and Amortization: PBGC calculates depreciation on the straight-line basis
over estimated useful lives of 5 years for equipment and 10 years for furniture and fixtures. PBGC
calculates amortization for capitalized software, which includes certain costs incurred for purchasing
and developing software for internal use, on the straight-line basis over estimated useful lives not to
exceed 5 years, commencing on the date that the Corporation determines that the internal-use
software is implemented. Routine maintenance and leasehold improvements (the amounts of which
are not material) are charged to operations as incurred.


Note 3 – Investments
        Premium receipts are invested through the revolving fund in U.S. Treasury securities. The
trust funds include assets PBGC assumes or expects to assume with respect to terminated plans (e.g.,
recoveries from sponsors) and investment income thereon. These assets generally are held by
custodian banks. The basis and market value of the investments by type are detailed below as well as
related investment profile data. The basis indicated is cost of the asset if assumed after the date of
                                                    14
plan termination or the market value at date of plan termination if the asset was assumed as a result of
a plan’s termination. PBGC marks the plan’s assets to market and any increase or decrease in the
market value of a plan’s assets occurring after the date on which the plan is terminated must, by law,
be credited to or suffered by PBGC. Investment securities denominated in foreign currency are
translated into U.S. dollars at the prevailing exchange rates at period end. Purchases and sales of
investment securities, income, and expenses are translated into U.S. dollars at the prevailing exchange
rates on the respective dates of the transactions. The portfolio does not isolate that portion of the
results of operations resulting from changes in foreign exchange rates of investments from the
fluctuations arising from changes in market prices of securities held. Such fluctuations are included
with the net realized and unrealized gain or loss on investments. For PBGC’s securities, unrealized
holding gains and losses are both recognized by including them in earnings. Unrealized holding gains
and losses measure the total change in fair value – consisting of unpaid interest income earned or
unpaid accrued dividend and the remaining change in fair value from holding the security.




                                                 15
           As the following table illustrates, the market value of investments of the single-employer
program decreased significantly from September 30, 2007, to September 30, 2008.



 INVE STM E NTS OF SINGLE -E M P LOYE R RE VOLVING FUNDS AND SINGLE -E M P LOYE R TRUSTE E D P LANS
                                                                             September 30,                         Septem ber 30,
                                                                                   2008                                 2007
                                                                                        Market                                  Market
 (Dollars in millions)                                                       Basis       Value                    Basis           Value
 Fixed m aturity securities:
    U.S. Governm ent securities                                           $17,509          $17,587            $17,658            $17,558
    Com m ercial paper                                                         636             636               1,188             1,188
    Repo/reverse repo*                                                       (865)            (865)                  0                  0
    Asset backed securities                                                  3,683           3,330               4,544             4,494
    Corporate and other bonds                                               16,037          13,387              13,250            13,210
    Subtotal                                                               37,000           34,075              36,640            36,450
 Equity securities:
  Public equity                                                              9,410          12,130               9,662            16,310
  Private equity                                                               955             914               1,067             1,076
    Subtotal                                                                10,365          13,044              10,729            17,386
 Real estate and real estate investm ent trusts                                  4               3                   4                  3
 Insurance contracts and other investm ents                                     18              23                  45                 37
 Total**                                                                  $47,387          $47,145    ***     $47,418            $53,876

 *A repo is a contract in w hich the seller of securities, such as Treasury Bills, agrees to buy them back at a specified time and price.
  A reverse repo is a purchase of securities w ith an agreement to resell them at a higher price at a specific future date. As of September 30, 2008,
 PBGC investment manager positions in reverse repos exceeded the amounts invested in repurchased agreements, thereby creating a credit balance
 in the above table for the net overall value of repo and reverse repo positions. R everse repurchase agreements provide a means for PBGC to
 maintain ow nership rights to specific mortgage pass-through securities, at times w hen cash is requird and the manager believes alternative means
 of funding (e.g., the sale of other portflio holdings or deferral of a purchased security's settlement date) are less favorable.
 **Total includes securities on loan at September 30, 2008, and September 30, 2007, w ith a market value of $3.623 billion and $4.939 billion,
  respectively.
 ***This total of $47,145 million of investments at market value represents the Single-Employer assets only. It differs from the total investments
 of $50.77 billion show n on page 16 of this report w hich includes investments of the Multiemployer Program, cash and accrued investment income.




 INVE STM E NTS OF M ULTIE M P LOYE R RE VOLVING FUNDS AND M ULTIE M P LOYE R TRUSTE E D P LANS
                                                                             September 30,                         Septem ber 30,
                                                                                   2008                                 2007
                                                                                        Market                                  Market
 (Dollars in millions)                                                       Basis       Value                    Basis           Value
 Fixed m aturity securities:
    U.S. Governm ent securities                                             $1,296          $1,298              $1,199            $1,189
 Equity securities                                                               0               0                   0                  0
 Total                                                                      $1,296          $1,298              $1,199            $1,189




                                                                    16
                               INVESTMENT PROFILE
                                                                      September 30,
                                                                       2008           2007
                               Fixed Income Assets
                               Average Quality                          AA             AA
                               Average Maturity (years)                13.3           16.7
                               Duration (years)                        9.5            13.4
                               Yield to Maturity (%)                   6.3             5.4
                               Equity Assets
                               Average Price/Earnings Ratio            15.4           18.3
                               Dividend Yield (%)                      2.4             1.8
                               Beta                                    1.04           1.03




 Derivative Instruments: PBGC assigns investment discretion to all of its investment managers.
These investment managers, who act as fiduciaries to PBGC, determine when it may or may not be
appropriate to utilize derivatives in the portfolios for which they are responsible. Investments in
derivatives carry many of the same risks of the underlying instruments and carry additional risks that
are not associated with direct investments in the securities underlying the derivatives. Furthermore,
risks may arise from the potential inability to terminate or sell derivative positions, although derivative
instruments are generally more liquid than physical market instruments. A liquid secondary market
may not always exist for certain derivative positions at any time. Over-the-counter derivative
instruments also involve counterparty risk that the other party to the derivative instrument will not
meet its obligations.
        The use of derivatives by PBGC investment managers is restricted in so far as portfolios
cannot utilize derivatives to create leverage in the portfolios for which they are responsible. That is,
the portfolios shall not utilize derivatives to leverage the portfolio beyond the maximum risk level
associated with a fully invested portfolio of physical securities. Such controls are necessary because the
use of leverage can magnify the effects of changes in the value of the portfolio’s investments, and
would make such investments more volatile.
        Derivatives are accounted for at market value in accordance with the Statement of Financial
Accounting Standards No. 133, as amended. Derivatives are marked to market with changes in value
reported within financial income. These instruments are used to (1) mitigate risk (e.g., adjust duration
or currency exposures), (2) enhance investment returns, and/or (3) as liquid and cost efficient
substitutes for positions in physical securities. The standard requires disclosure of fair value on these
instruments. During fiscal years 2007 and 2008, PBGC invested in investment products that used
various U.S. and non-U.S. derivative instruments including but not limited to: money market, futures,
options, government bond futures, forward contracts, interest rate, credit default and total return
swaps and swaption contracts, stock warrants and rights, debt option contracts, and foreign currency

                                                              17
forward and option contracts. Some of these derivatives are traded on organized exchanges and thus
bear minimal counterparty risk. The counterparties to PBGC’s non-exchange-traded derivative
contracts are major financial institutions. PBGC monitors its counterparty risk and exchanges
collateral to further support performance by its counterparties.
        A futures contract is an agreement between a buyer or seller and an established futures exchange
or clearinghouse in which the buyer or seller agrees to take or make a delivery of a specific amount of a
financial instrument at a specified price on a specific date (settlement date). The futures exchange
clearinghouses clear, settle, and guarantee transactions occurring through its facilities. Upon entering
into a futures contract, an “initial margin” amount (in cash or liquid securities) of generally one to six
percent of the face value indicated in the futures contract is required to be deposited with the broker.
Open futures positions are marked to market daily. Subsequent payments known as “variation margin”
are made or received by the portfolio dependent upon the daily fluctuations in value of the underlying
contract. PBGC maintains adequate liquidity in its portfolio to meet these margin calls. Futures
contracts are valued at the most recent settlement price.
        PBGC also invests in forward contracts. A bond forward is an agreement whereby the short
position agrees to deliver pre-specified bonds to the long position at a set price and within a certain time
window. A TBA (“to be announced”) forward instrument is an underlying contract on a mortgage
backed security (MBS) to buy or sell a MBS which will be delivered at an agreed-upon date in the future.
The pool of actual securities is to be announced 48 hours prior to the established trade settlement date.
A forward foreign currency exchange contract is a commitment to purchase or sell a foreign currency at
the settlement date at a negotiated rate. Foreign currency forward and option contracts may be used as
a substitute for cash currency holdings, in order to minimize currency risk exposure to changes in
foreign currency exchange rates and to adjust overall currency exposure to reflect the investment views
of the fixed income portfolio managers regarding relationships between currencies.
         A swap is an agreement between two parties to exchange different financial returns on a
notional investment amount. The payment flows are usually netted against each other, with one party
paying the difference to the other. The major forms of swaps traded are interest rate swaps, credit
default swaps, and total return swaps. PBGC uses swap and swaption (an option on a swap) contracts
to adjust exposure to interest rates, fixed income securities exposure, credit exposure, equity exposure,
and to generate income based on the investment views of the portfolio managers regarding interest rates,
indices and debt issues.
        Interest rate swaps involve exchanges of fixed rate and floating rate interest. Interest rate swaps
are often used to alter exposure to interest rate fluctuations, by swapping fixed rate obligations for
floating rate obligations, or vice versa. The counterparties to the swap agree to exchange interest
payments on specific dates, according to a predetermined formula.
                                                    18
        A credit default swap is a contract between a buyer and seller of protection against a pre-defined
credit event. The portfolio may buy or sell credit default swap contracts to seek to increase the
portfolio’s income or to mitigate the risk of default on portfolio securities.
        A total return swap is a contract between a buyer and seller of exposures to certain asset classes
such as equities. The portfolio may buy or sell total return contracts to seek to increase or reduce the
portfolio’s exposure to certain asset classes.
        An option contract is a contract in which the writer of the option grants the buyer of the option
the right to purchase from (call option) or sell to (put option) the writer a designated instrument at a
specified price within a specified period of time.
        Stock warrants and rights allow PBGC to purchase securities at a stipulated price within a
specified time limit.
        For the fiscal years ended September 30, 2008 and 2007, respectively, gains and losses from
settled margin calls are reported in Investment income on the Statements of Operations and Changes in
Net Position. Securities pledged by PBGC as collateral for derivative contracts, e.g., futures and swaps,
are recorded in investments by PBGC’s custodian bank.
        During FY 2008, PBGC’s investment managers increased their utilization of derivative
instruments. Changing market conditions in FY 2008, such as the significant increase in market
volatility and the substantial decrease in market liquidity, created an environment in which derivative
instruments represented a more cost efficient means for implementing portfolio strategies than in FY
2007.
        The following table summarizes the notional amounts and fair market values (FMV) of all
derivative financial instruments held or issued for trading as of September 30, 2008, and September 30,
2007.




                                                     19
                                                              Sept. 30, 2008              Sept. 30, 2007
  DERIVATIVE CONTRACTS                                    Notional        FMV           Notional     FMV
  (Dollars in millions)

  Futures
    Contracts in a receivable position                     $ 7,756       $ 155            $ 9,380     $ 3
    Contracts in a payable position                          7,626         (34)        ____6,869     _ (14) __
  Total futures                                             15,382         121             16,249      (11)


  Swap agreements
   Interest rate swaps                                       11,211         10              10,352     (76)
   Credit default swaps                                       6,370        (90)              2,063      33
  Total swap agreements                                     17,581         (80)             12,415     (43)


  Option contracts
   Options purchased (long)                                  5,501          51               6,425      76
   Options written (sold short)                              1,438         (31)              2,338     (49)
  Total option contracts                                     6,939          20               8,763      27


  Forward contracts
   Forwards – foreign exchange                               1,790          (6)             1,505       11
   Forwards – bonds/TBA’s                                    2,657         (21)               765       (3)
  Total forward contracts                                    4,447         (27)             2,270        8




Securities Lending: PBGC participates in a securities lending program administered by its
custodian bank whereby the custodian bank lends PBGC’s securities to third parties. The custodian
bank requires collateral from the borrower that equals 102 percent to 105 percent of the securities
lent. The collateral is held by the custodian bank. In addition to the lending program managed by the
custodian bank, some of PBGC’s investment managers are authorized to invest in repurchase
agreements and reverse repurchase agreements. The manager either receives cash as collateral or pays
cash out to be used as collateral. Any cash collateral received is invested. The total value of securities
on loan at September 30, 2008, and September 30, 2007, was $3.623 billion and $4.939 billion,
respectively. Although securities on loan have decreased since September 30, 2007, there continues to
be an ongoing demand for fixed income securities to lend.
      The amount of cash collateral received for these loaned securities was $3.772 billion at
September 30, 2008, and $5.045 billion at September 30, 2007. These amounts are recorded as assets
and are offset with a corresponding liability. PBGC had earned income from securities lending of

                                                  20
 $34.6 million and $6.2 million for the years ending September 30, 2008, and September 30, 2007,
 respectively. Net income from securities lending is included in “Investment income – Fixed” on the
 Statements of Operations and Changes in Net Position. As of September 30, 2008, PBGC loaned out
 $3.623 billion in securities of approximately $17.913 billion of securities available for securities
 lending.
           Of the $3.623 billion market value of securities on loan at September 30, 2008, approximately
 84% are invested in U.S. government securities and 16% in U.S. corporate securities.


Note 4 – Derivative Contracts

          PBGC’s derivative financial instruments are recorded at fair value and are included on the
Statements of Financial Condition as investments and derivative contracts. Amounts in the table below
represent the derivative contracts in a receivable position at financial statement date. Included in the
total of $6,831 million is $4,577 million representing trades sold and removed from the market value of
investments (i.e., bond forwards, TBA’s, interest rate swaps, credit default swaps) on the Statements of
Financial Condition and shown below as derivative contracts receivable. The balance of $2,254 million
represents contracts sold which have longer settlement dates to maturity.

 DERIVATIVE CONTRACTS


 (Dollars in millions)                                September 30, 2008                    September 30, 2007
 Open trades on derivatives:
     Futures contracts                                       $     155                             $     8
     Foreign exchange forwards                                   2,099                              1,770
     Bond forwards                                                855                                  243
     To be announced (TBA) forwards *                            2,969                              2,169
     Interest rate swaps                                           79                                  380
     Credit default swaps                                         674                                   64
 Total                                                       $6,831                                $4,634


* TBA (to be announced) is a contract for the purchase or sale of mortgage-backed securities to be delivered on a future date. The
term TBA is derived from the fact that the actual mortgage-backed security that will be delivered to fulfill a TBA trade is not
designated at the time the trade is made. The securities are to be announced 48 hours prior to the established trade settlement date.
TBA’s are issued by FHLMC, FNMA and GNMA.




Amounts in the Derivative Contracts table below represent derivative contracts in a payable position at
financial statement date which PBGC reflects as a contracts liability. Included in this total payable of
$6,217 million is $4,078 million representing the market value of investments (i.e., bond forwards,
TBA’s, interest rate swaps, credit default swaps) which are included in amounts shown as investments at

                                                                   21
market on the Statements of Financial Condition. The balance of $2,139 million reflects the market
value of investments purchased with settlement dates in the future and are shown below as derivative
contracts payable.

 DERIVATIVE CONTRACTS


 (Dollars in millions)                    September 30, 2008             September 30, 2007
 Open trades on derivatives:
    Futures contracts                           $     34                      $     19
    Foreign exchange forwards                       2,105                         1,759
    Bond forwards                                    823                           283
    To be announced (TBA) forwards               2,461                            2,340
    Interest rate swaps                               80                           378
    Credit default swaps                             714                            66
 Total                                          $6,217                         $4,845




 Note 5 – Present Value of Future Benefits
          The following table summarizes the actuarial adjustments, charges and credits that explain
 how the Corporation’s single-employer program liability for the present value of future benefits
 changed for the years ended September 30, 2008 and 2007.
          For FY 2008, PBGC used a 20-year select interest factor of 6.66% followed by an ultimate
 factor of 6.47% for the remaining years. In FY 2007, PBGC used a 20-year select interest factor of
 5.31% followed by an ultimate factor of 4.88% for the remaining years. These factors were
 determined to be those needed, given the mortality assumptions, to continue to match the survey of
 annuity prices provided by the American Council of Life Insurers (ACLI). Both the interest factor
 and the length of the select period may vary to produce the best fit with these prices. The prices
 reflect rates at which, in the opinion of management, the liabilities (net of administrative expenses)
 could be settled in the market at September 30, for the respective year, for single-premium
 nonparticipating group annuities issued by private insurers. Many factors, including Federal Reserve
 policy, changing expectations about longevity risk, and competitive market conditions may
 affect these rates.
          Beginning in FY 2006, a Lehman Long Corporate A and Higher bond index as of the last
 trading day of the month is used and is applied to both the select and ultimate factors instead of the
 select factor only as had been prior practice. Finally, interest factors beginning in FY 2006 are now
 rounded to two decimal places instead of one so as to be able to state to the level of a single basis
 point.
          For September 30, 2008, PBGC used the 1994 Group Annuity Mortality (GAM) 94 Static
                                                      22
Table (with margins), set forward one year and projected 24 years to 2018 using Scale AA. For
September 30, 2007, PBGC used the same table set forward one year, projected 23 years to 2017
using scale AA. The number of years that PBGC projects the mortality table reflects the number of
years from the 1994 base year of the table to the end of the fiscal year (14 years in 2008 versus 13
years in 2007) plus PBGC’s calculated duration of its liabilities (10 years in both 2008 and 2007).
PBGC’s procedure is based on the procedures recommended by the Society of Actuaries UP-94 Task
Force (which developed the GAM94 table) for taking into account future mortality improvements.
        PBGC continues to utilize the results of its 2004 mortality study. The study showed that the
mortality assumptions used in FY 2003 reflected higher mortality than was realized in PBGC’s
seriatim population. Therefore, PBGC adopted a base mortality table (i.e., GAM94 set forward one
year instead of GAM94 set forward two years) that better reflects past mortality experience. The
ACLI survey of annuity prices, when combined with the mortality table, provides the basis for
determining the interest factors used in calculating the PVFB. The insurance annuity prices, when
combined with the stronger mortality table, result in a higher interest factor.
        The reserve for administrative expenses in the 2006 valuations was assumed to be 1.18
percent of benefit liabilities plus additional reserves for cases in which plan asset determinations,
participant database audits and actuarial valuations were not yet complete. As the result of an updated
study, the expense reserve factor for FY 2007 has changed to 1.37 percent and carried forward to FY
2008. The factors to determine the additional reserves were also re-estimated and continue to be
based on plan milestone completion as well as case size, number of participants and time since
trusteeship.
        The present values of future benefits for trusteed multiemployer plans for 2008 and 2007
reflect the payment of assistance and the changes in interest and mortality assumptions, the passage of
time and the effect of experience.
        The resulting liability represents PBGC’s best estimate of the measure of anticipated
experience under these programs.




                                                  23
RECONCILIATION OF THE PRESENT VALUE OF FUTURE BENEFITS FOR THE YEARS ENDED SEPTEMBER 30, 2008 AND 2007
                                                                                                           September 30,

 (Dollars in millions)                                                                 2008                                                    2007
 Present value of future benefits, at beginning                                                                                                       $69,143
       of year -- Single-Employer, net                                                        $69,235
   Estimated recoveries, prior year                                                               155                                                       62
   Assets of terminated plans pending trusteeship, net, prior year                                540                                                     282
   Present value of future benefits at beginning of year, gross                                69,930                                                  69,487
   Settlements and judgments, prior year                                                          (55)                                                     (55)
   Net claims for probable terminations, prior year                                            (3,786)                                                 (4,862)
   Actuarial adjustments -- underwriting:
     Changes in method and assumptions                                       $ (715)                                             $      (88)
     Effect of experience                                                        66                                                     (26)
     Total actuarial adjustments -- underwriting                               (649)                                                   (114)
   Actuarial charges -- financial:
     Passage of time                                                          3,400                                                   3,269
     Change in interest rates                                                (7,564)                                                 (2,809)
     Total actuarial charges -- financial                                    (4,164)                                                   460
   Total actuarial charges, current year                                                        (4,813)                                                  346
   Terminations:
     Current year                                                              662                                                   5,548
     Changes in prior year                                                    (382)                                                   (109)
     Total terminations                                                                           280                                                   5,439
   Benefit payments, current year*                                                             (4,292)                                                 (4,266)
   Estimated recoveries, current year                                                            (165)                                                   (155)
   Assets of terminated plans pending trusteeship, net, current year                             (313)                                                   (540)
   Settlements and judgments, current year                                                         56                                                      55
   Net claims for probable terminations:
     Future benefits**                                                       12,606                                              14,810
     Estimated plan assets and recoveries from sponsors                      (9,452)                                            (11,024)
     Total net claims, current year                                                             3,154                                                  3,786
 Present value of future benefits,
   at end of year -- Single-Employer, net                                                      59,996                                                 69,235
 Present value of future benefits,
   at end of year -- Multiemployer                                                                  1                                                   2
 Total present value of future benefits, at end of year, net                                  $59,997                                             $69,237

  * The benefit payments of $4,292 million and $4,266 million include $45 million in 2008 and $96 million in 2007 for benefits paid from plan
 assets by plans prior to trusteeship.
 ** The future benefits for probable terminations of $12,606 million and $14,810 million for fiscal years 2008 and 2007, respectively, include
 $59 million and $71 million, respectively, for probable terminations not specifically identified and $12,547 million and $14,739 million,
 respectively, for specifically identified probables.


 The following table details the assets that make up single-employer terminated plans pending
 termination and trusteeship:

  ASSETS OF SINGLE-EMPLOYER PLANS PENDING TERMINATION AND TRUSTEESHIP, NET
                                       September 30, 2008    September 30, 2007
                                       Basis      Market     Basis       Market
  (Dollars in millions)                            Value                   Value
  U.S. Government securities            $ 10        $ 11     $ 11          $ 11
  Corporate and other bonds              101          101     151           155
  Equity securities                      117          120     172           187
  Insurance contracts                      0            0       1             0
  Other                                   82           81     188           187

  Total, net                                                               $310                 $313                    $523                   $540




                                                                             24
Net Claims for Probable Terminations: Factors that are presently not fully determinable may be
responsible for these claim estimates differing from actual experience. Included in net claims for
probable terminations is a provision for future benefit liabilities for plans not specifically identified.
The values recorded in the following reconciliation table have been adjusted to the expected dates of
termination.

RECONCILIATION OF NET CLAIMS FOR PROBABLE TERMINATIONS
                                                                                                        September 30,
(Dollars in millions)                                                               2008                                          2007
Net claims for probable terminations, at beginning of year                                     $3,786                                     $ 4,862
New claims                                                             $     233                                        $ 130
Actual terminations                                                         (148)                                       (1,745)
Deleted probables                                                              0                                           (17)
Change in benefit liabilities                                             (3,400)                                         1,189
Change in plan assets                                                      2,683                                          (633)
Loss (credit) on probables                                                                       (632)                                     (1,076)
Net claims for probable terminations, at end of year                                           $3,154                                     $ 3,786


The following table itemizes the probable exposure by industry:
PROBABLES EXPOSURE BY INDUSTRY (PRINCIPAL CATEGORIES)
(Dollars in millions)                                                        FY 2008                    FY 2007
Manufacturing                                                                 $2,964                    $3,590
Services                                                                          90                        71
Wholesale and Retail Trade                                                        49                        27
Finance, Insurance, and Real Estate                                               46                        19
Health Care                                                                        5                        79
Total                                                                         $3,154                    $3,786



  For further detail, see Note 2 subpoint (4).
                  The following table shows what has happened to plans classified as probables. This table
  does not capture or include those plans that were not previously classified as probable before they
  terminated. This table incorporates the impact of the additional probable deletions of the Pension
  Protection Act (PPA). The second table below reflects results excluding the impact due to the PPA,
  which was an unpredictable factor impacting PBGC’s ability to predict probables as terminations.


ACTUAL PROBABLES EXPERIENCE
As Initially Recorded Beginning in 1987
(Dollars in millions)                                              Status of Probables from 1987-2007 at September 30, 2008
                                                             Number of           Percent of                   Net           Percent of
Beginning in 1987, number of plans reported as Probable:         Plans                Plans                 Claim           Net Claim
  Probables terminated                                             318                 78%                        $24,251                66%
   Probables not yet terminated or deleted                            7                    2                        2,990                 8
   Probables deleted *                                              80                 20                           9,358                26
   Total                                                           405                 100%                       $36,599                100%


*“Probables deleted” in the above table includes five plans deleted due to airline relief provisions pursuant
PPA. Absent passage of PPA and had these five plans terminated, the following values in the above table
would be adjusted:




                                                                      25
       ADJUSTED PROBABLES EXPERIENCE – excluding impact of Pension Protection Act of 2006
       As Initially Recorded Beginning in 1987
       (Dollars in millions)                                            Status of Probables from 1987-2007 at September 30, 2008
                                                                  Number of           Percent of                   Net           Percent of
       Beginning in 1987, number of plans reported as Probable:       Plans                Plans                 Claim           Net Claim
         Probables terminated                                           323                80%                $32,461                 89%
          Probables not yet terminated or deleted                          7                2                   2,990                  8
          Probables deleted *                                            75                18                   1,148                  3
          Total                                                         405              100%                 $36,599               100%




       Note 6 – Multiemployer Financial Assistance
                      PBGC provides financial assistance to multiemployer defined benefit pension plans in the form
       of loans. An allowance is set up to the extent that repayment of these loans is not expected.


N OTES RECEIVABLE M ULTIEMPLOYER FIN AN CIAL ASSISTAN CE
                                                                                                       September 30,                          Septem ber 30,
(Dollars in millions)                                                                                      2008                                     2007

Gross balance at beginning of year                                                                              $226                                  $155
Financial assistance paym ents - current year                                                                      85                                    71
Subtotal                                                                                                          311                                   226
Allowance for uncollectible am ounts                                                                             (311)                                 (226)
Net balance at end of period                                                                                    $ 0                                   $ 0




                         The losses from financial assistance reflected in the Statements of Operations and Changes in
         Net Position include period changes in the estimated present value of nonrecoverable future financial
         assistance.
                         As of September 30, 2008, the corporation expects 90 multiemployer plans will exhaust plan
         assets and need financial assistance from PBGC to pay guaranteed benefits and plan administrative
         expenses. The present value of nonrecoverable future financial assistance for these 90 plans is $1.8
         billion. The 90 plans fall into three categories – plans currently receiving financial assistance; plans
         that have terminated but have not yet started receiving financial assistance from PBGC; and ongoing
         plans (not terminated) that the corporation expects will require financial assistance in the future.
                         Of the 90 plans:
                  •       37 have exhausted plan assets and are currently receiving financial assistance payments from
                          PBGC. The present value of future financial assistance payments for these insolvent 37 plans
                          is $841 million.




                                                                           26
            •      47 plans have terminated but have not yet started receiving financial assistance payments
                   from PBGC. Terminated multiemployer plans no longer have employers making regular
                   contributions for covered work, though some plans continue to receive withdrawal liability
                   payments from withdrawn employers. In general, PBGC records a loss for future financial
                   assistance for any underfunded multiemployer plan that has terminated. The present value of
                   future financial assistance payments to these 47 terminated plans is $639 million.
            •      6 plans are ongoing (i.e., have not terminated), but PBGC expects these plans will exhaust
                   plan assets and need financial assistance within 10 years. In this analysis, PBGC takes into
                   account the current plan assets, future income to the plan, the statutory funding rules, and
                   the possibility for future increases in contributions. The present value of future financial
                   assistance payments for these 6 ongoing plans is $289 million.


    PRESENT VALUE OF NONRECOVERABLE FUTURE FINANCIAL
    ASSISTANCE AND LOSSES FROM FINANCIAL ASSISTANCE
                                                                           September 30,             September 30,
    (Dollars in millions)                                                       2008                       2007

    Balance at beginning of year                                               $ 2,124                     $1,876
    Changes in allowance:
     Losses (credits) from financial assistance                                  (271)                       319
     Financial assistance granted
       (previously accrued)                                                        (85)                       (71)
    Balance at end of period                                                   $ 1,768                     $2,124




   Note 7 – Accounts Payable and Accrued Expenses
                The following table itemizes accounts payable and accrued expenses reported in the Statements
   of Financial Condition:


ACCOUN TS PAYABLE AN D ACCRUED EXPEN SES
                                                                             September 30,                   September 30,
(Dollars in m illions)                                                               2008                           2007
Annual leave                                                                              $     6                    $     6
Other payables and accrued expenses                                                           157                        105

Accounts payable and accrued expenses                                                     $ 163                      $111




                                                            27
   Note 8 – Contingencies
                   Single-employer plans sponsored by companies whose credit quality is below investment
   grade pose a greater risk of being terminated. In addition, there are some multiemployer plans that
   may require future financial assistance. The estimated unfunded vested benefits exposure amounts
   disclosed below represent the Corporation’s best estimates of the reasonably possible exposure to loss
   in these plans given the inherent uncertainties about these plans.
                   In accordance with Statement of Financial Accounting Standards No. 5, PBGC classified a
   number of these companies as reasonably possible rather than probable terminations as the sponsors’
   financial condition and other factors did not indicate that termination of their plans was likely. This
   classification was done based upon information about the companies as of September 30, 2008.
                   The best estimate of unfunded vested benefits exposure to loss for the single-employer plans
   of these companies was measured as of December 31, 2007. The reasonably possible exposure to
   loss in these plans was $47 billion for FY 2008. This is down from $66 billion in FY 2007. This
   reasonably possible exposure to loss declined primarily due to a net reduction in the unfunded vested
   benefit liabilities of the plans whose sponsors remained at risk and improved credit ratings and/or
   other measures of risk for others.
                   The best estimate of unfunded vested benefits exposure to loss is not based on PBGC-
   guaranteed benefit levels. PBGC calculated this estimate, as in previous years, by using data obtained
   from filings and submissions to the government and from corporate annual reports for fiscal years
   ending in calendar 2007. The Corporation adjusted the value reported for liabilities to December 31,
   2007, PBGC select rate of 5.37% that was derived using the 1994 Group Annuity Mortality Static
   Table (with margins) projected to 2017 using Scale AA. When available, data were adjusted to a
   consistent set of mortality assumptions. The underfunding associated with these plans could be
   substantially different at September 30, 2008, because of the economic conditions that existed
   between December 31, 2007 and September 30, 2008. The Corporation did not adjust the estimate
   for events that occurred between December 31, 2007, and September 30, 2008.
                   The following table by industry itemizes the reasonably possible exposure to loss:
REASONABLY POSSIBLE EXPOSURE TO LOSS BY INDUSTRY (PRINCIPAL CATEGORIES)
 (Dollars in millions)                                                          FY 2008   FY 2007
 Manufacturing *                                                                $20,995   $31,364
 Transportation, Communication and Utilities **                                  16,161    19,454
 Wholesale and Retail Trade                                                       4,495     5,808
 Services                                                                         2,412     4,273
 Health Care                                                                      1,531     2,628
 Agriculture, Mining, and Construction                                              700       985
 Finance, Insurance, and Real Estate                                                438     1,153
 Total                                                                          $46,732   $65,665

 * For FY 2008, primarily automobile/auto parts and primary and fabricated metals
 ** For FY 2008, primarily airline




                                                                         28
             PBGC included amounts in the liability for the present value of nonrecoverable future
 financial assistance (see Note 6) for multiemployer plans that PBGC estimated may require future
 financial assistance. In addition, PBGC currently estimates that it is reasonably possible that other
 multiemployer plans may require future financial assistance in the amount of $30 million.
             The Corporation calculated the future financial assistance liability for each multiemployer plan
 identified as probable (see Note 6), or reasonably possible as the present value of guaranteed future
 benefit and expense payments net of any future contributions or withdrawal liability payments as of
 the later of September 30, 2008, or the projected (or actual, if known) date of plan insolvency,
 discounted back to September 30, 2008. The Corporation’s identification of plans that are likely to
 require such assistance and estimation of related amounts required consideration of many complex
 factors, such as an estimate of future cash flows, future mortality rates, and age of participants not in
 pay status. These factors are affected by future events, including actions by plans and their sponsors,
 most of which are beyond the Corporation’s control.


Note 9 – Commitments

             PBGC leases its office facility under a commitment that began on January 1, 2005, and expires
 December 10, 2018. This lease provides for periodic rate increases based on increases in operating
 costs and real estate taxes over a base amount. In addition, PBGC is leasing space for field benefit
 administrators. These leases began in 1996 and expire in 2013. The minimum future lease payments
 for office facilities having noncancellable terms in excess of one year as of September 30, 2008, are as
 follows:


COMMITMENTS: FUTURE LEASE PAYMENTS

(Dollars in millions)
Years Ending                                                           Operating
September 30,                                                            Leases
2009                                                                     $ 19.9
2010                                                                        18.9
2011                                                                        19.8
2012                                                                        18.4
2013                                                                        19.1
Thereafter                                                                108.4
Minimum lease payments                                                   $204.5




Lease expenses were $21.5 million in 2008 and $21.9 million in 2007.




                                                      29
Note 10 – Premiums
             For both the single-employer and multiemployer programs, ERISA provides that PBGC shall
continue to guarantee basic benefits despite the failure of a plan administrator to pay premiums when
due. PBGC assesses interest and penalties on the unpaid portion of or underpayment of premiums.
                         Interest continues to accrue until the premium and the interest due are paid. For plan
year 2007 the flat-rate premiums for single-employer pension plans was $31 per participant and for
multiemployer plans, $8 per participant. For plan year 2008, per participant rates were $33 for single-
employer plans and $9 for multiemployer plans. PBGC recorded premium income, excluding interest
and penalty, of approximately $1.171 billion in flat-rate premiums, $241 million in variable-rate
premiums, and $57 million in termination premiums for fiscal year 2008, and approximately $1.117
billion in flat-rate premiums, $358 million in variable-rate premiums, and $61 million in terminated
premiums for fiscal year 2007. The termination premium is a $1,250 per participant annual post-
termination premium payable for three years that applies to certain plan terminations occurring after
2005.
             Since premium income for FY 2008 primarily consists of plan year 2008 and 2007 premiums,
and revenue recognition accounting principles require partial recognition of plan year 2008 premiums
as of September 30, 2008, the 2008 increase in flat-rate premium income represents approximately
66% of the full impact to the plan year 2008 flat-rate premiums due for all plans.


Note 11 – Losses from Completed and Probable Terminations
           Amounts reported as losses are the present value of future benefits less related plan assets and
the present value of expected recoveries from sponsors. The following table details the components
that make up the losses:

LOSSES FROM COMPLETED AND PROBABLE TERMINATIONS -- SINGLE-EMPLOYER PROGRAM
                                                                                    For the Years Ended September 30,
                                                                    2008                                                        2007
                                                                 Changes in                                                  Changes in
                                                New              Prior Year                                   New            Prior Year
(Dollars in millions)                       Terminations        Terminations          Total                Terminations     Terminations            Total
Present value of future benefits               $ 662                     $(382)       $ 280                      $ 5,548             $(109)          $ 5,439
Less plan assets                                 391                        74           465                       3,802                69             3,871
Plan asset insufficiency                         271                      (456)         (185)                      1,746              (178)            1,568
Less estimated recoveries                          0                        10            10                            0               94                94
Subtotal                                         271*                     (466)        (195)                       1,746*             (272)            1,474
Settlements and judgments                                                    1             1                                             1                 1
Loss (credit) on probables                       (148)                    (484)        (632)**                    (1,745)              669            (1,076)**
Total                                           $ 123                   $ (949)       $(826)                      $    1             $ 398           $ 399
* gross amounts for plans terminated during the year
** see Note 5 – includes $148 million at September 30, 2008, and $1,745 million at September 30, 2007, previously recorded relating to plans that
  terminated during the period




                                                                        30
Note 12 – Financial Income

     The following table details the combined financial income by type of investment for both the
single-employer and multiemployer programs:


 INVESTMENT INCOME SINGLE-EMPLOYER AND MULTIEMPLOYER PROGRAMS
                             Single-Employer   Multiemployer    Memorandum       Single-Employer Multiemployer      Memorandum
                                Program          Program            Total           Program          Program            Total
 (Dollars in millions)        Sept. 30, 2008   Sept. 30, 2008   Sept. 30, 2008    Sept. 30, 2007   Sept. 30, 2007   Sept. 30, 2007


 Fixed income securities:

   Interest earned              $ 2,071            $ 63           $ 2,134           $ 1,992            $ 60              $2,052
   Realized gain (loss)           1,268              45             1,313              (620)            (62)               (682)
   Unrealized gain (loss)        (2,762)             13            (2,749)              358              25                 383

 Total fixed income
   securities                        577             121               698            1,730              23               1,753

 Equity securities:
   Dividends earned                   72               0                72               88                0                 88
   Realized gain (loss)             (835)              0              (835)             801                0                801
   Unrealized gain (loss)         (4,025)              0            (4,025)           2,099                0              2,099

   Total equity securities        (4,788)              0            (4,788)           2,988                0              2,988

 Other income                         47               0                47                19               0                    19

 Total investment income
  (loss)                        $ (4,164)          $ 121          $ (4,043)         $ 4,737            $ 23              $4,760




                                                                      31
Note 13 – Employee Benefit Plans
      All permanent full-time and part-time PBGC employees are covered by the Civil Service
Retirement System (CSRS) or the Federal Employees Retirement System (FERS). Full-time and part-
time employees with less than five years service under CSRS and hired after December 31, 1983, are
automatically covered by both Social Security and FERS. Employees hired before January 1, 1984,
participate in CSRS unless they elected and qualified to transfer to FERS.
      The Corporation’s contribution to the CSRS plan for both 2008 and 2007 was 7.0 percent of
base pay for those employees covered by that system. For those employees covered by FERS, the
Corporation’s contribution was 11.2 percent of base pay for both 2008 and 2007. In addition, for
FERS-covered employees, PBGC automatically contributes one percent of base pay to the employee’s
Thrift Savings account, matches the first three percent contributed by the employee and matches one-
half of the next two percent contributed by the employee. Total retirement plan expenses amounted
to $15 million in 2008 and $14 million in 2007.
      These financial statements do not reflect CSRS or FERS assets or accumulated plan benefits
applicable to PBGC employees. These amounts are reported by the U.S. Office of Personnel
Management (OPM) and are not allocated to the individual employers. OPM accounts for federal
health and life insurance programs for those eligible retired PBGC employees who had selected
federal government-sponsored plans. PBGC does not offer other supplemental health and life
insurance benefits to its employees.


Note 14 – Cash Flows
        The following two tables, one for Sales and one for Purchases, provide further details on cash
flows from investment activity. Sales and purchases of investments are driven by the level of newly
trusteed plans, the unique investment strategies implemented by PBGC’s investment managers, and
the varying capital market conditions in which they invest during the year. These cash flow numbers
can vary significantly from year to year based on the fluctuation in these three variables.




                                                  32
     INVESTING ACTIVITIES (SINGLE-EMPLOYER AND MULTIEMPLOYER PROGRAMS
     COMBINED)
                                                                                       September 30,
       (Dollars in millions)                                                    2008                   2007
       Proceeds from sales of investments:
          Fixed maturity securities                                        $198,230                $107,251
          Equity securities                                                     462                   3,314
          Other/uncategorized                                                20,803                  15,093
       Memorandum total                                                    $219,495                $125,658

       Payments for purchases of investments:
          Fixed maturity securities                                       $(197,197)               $(108,530)
          Equity securities                                                    (459)                  (4,287)
          Other/uncategorized                                               (20,783)                 (11,627)
       Memorandum total                                                   $(218,439)               $(124,444)



 The following is a reconciliation between the net income as reported in the Statements of Operations
 and Changes in Net Position and net cash provided by operating activities as reported in the
 Statements of Cash Flows.


RECONCILIATION OF NET INCOME TO NET CASH PROVIDED BY OPERATING ACTIVITIES
                                                           Single-Employer                    Multiemployer          Memorandum
                                                               Program                            Program                 Total
                                                              September 30,                     September 30,          September 30,
 (Dollars in millions)                                       2008        2007                  2008       2007       2008          2007
 Net income (loss)                                        $ 2,433     $ 5,031                 $ 482     $(216)    $ 2,915       $ 4,815
 Adjustments to reconcile net income to net cash
  provided by operating activities:
     Net (appreciation) decline in fair value of
         investments                                        6,268          (2,658)              (58)       38       6,210       (2,620)
     Net gain (loss) of plans pending termination and
         trusteeship                                           25            (107)                 0          0       25          (107)
     Losses (credits) on completed
         and probable terminations                           (826)             399                0          0      (826)          399
     Actuarial charges (credits)                           (4,813)             346               (1)         0    (4,814)          346
     Benefit payments - trusteed plans                     (4,247)         (4,170)                0          0    (4,247)       (4,170)
     Settlements and judgments                                 (1)              (2)               0          0         (1)          (2)
     Cash received from plans upon trusteeship                155              165                0          0       155           165
     Receipts from sponsors/non-sponsors                      142              349                0          0       142           349
     Amortization of discounts/premiums                      (429)           (599)              (41)       (53)     (470)         (652)
     Changes in assets and liabilities, net of effects
       of trusteed and pending plans:
          (Increase) decrease in receivables                 (149)           197                 (8)          1     (157)         198
           Increase (decrease) in present value of
             nonrecoverable future financial assistance                                        (356)      248        (356)         248
           Increase (decrease) in unearned premiums            29               4                 5        (1)         34            3
           Increase in accounts payable                        52              18                 0         0          52           18
 Net cash provided (used) by operating activities         $(1,361)        $(1,027)            $ 23       $ 17     $(1,338)     $(1,010)




                                                                     33
 Note 15 – Litigation
       Legal challenges to PBGC’s policies and position continued in 2008. At the end of the fiscal
 year, PBGC had 561 open, active bankruptcy cases and 80 active cases in state and federal courts
 (other than in bankruptcy court). PBGC records as a liability on its financial statements an estimated
 cost for unresolved litigation to the extent that losses in such cases are probable and estimable in
 amount. In addition to such recorded cases, at September 30, 2008, PBGC estimated with a degree of
 certainty that possible losses of up to $104 million could be incurred in the event that PBGC does not
 prevail in these matters. These possible losses are not recognized in the financial statements.



 Note 16 – Subsequent Events
       PBGC’s financial statements are as of September 30, 2008. Since the close of the fiscal year,
there continue to be significant events in the economy and financial markets that may impact the
financial statement measurements going forward.




                                                   34
This page intentionally left blank.
Audit of the Pension Benefit Guaranty Corporation’s
 Fiscal Year 2008 and 2007 Financial Statements

         Audit Report 2009-1 / FA-0049-1




                   Section III

              Agency Comments
